      36554                       Federal Register / Vol. 70, No. 121 / Friday, June 24, 2005 / Proposed Rules

                                      TABLE 1.—WASTES EXCLUDED FROM NON-SPECIFIC SOURCES—Continued
                    Facility                                 Address                                                          Waste description

                                                                                     (6) Reopener Language: (A) If, at any time after disposal of the delisted waste, Nis-
                                                                                       san possesses or is otherwise made aware of any environmental data (including
                                                                                       but not limited to leachate data or groundwater monitoring data) or any other data
                                                                                       relevant to the delisted waste indicating that any constituent identified in the
                                                                                       delisting verification testing is at a level higher than the delisting level allowed by
                                                                                       EPA in granting the petition, Nissan must report the data, in writing, to EPA within
                                                                                       10 days of first possessing or being made aware of that data. (B) If the testing of
                                                                                       the waste, as required by Condition (2)(B), does not meet the delisting require-
                                                                                       ments of Condition (1), Nissan must report the data, in writing, to EPA within 10
                                                                                       days of first possessing or being made aware of that data. (C) Based on the infor-
                                                                                       mation described in paragraphs (6)(A) or (6)(B) and any other information re-
                                                                                       ceived from any source, EPA will make a preliminary determination as to whether
                                                                                       the reported information requires that EPA take action to protect human health or
                                                                                       the environment. Further action may include suspending or revoking the exclu-
                                                                                       sion, or other appropriate response necessary to protect human health and the
                                                                                       environment. (D) If EPA determines that the reported information does require
                                                                                       Agency action, EPA will notify the facility in writing of the action believed nec-
                                                                                       essary to protect human health and the environment. The notice shall include a
                                                                                       statement of the proposed action and a statement providing Nissan with an oppor-
                                                                                       tunity to present information as to why the proposed action is not necessary. Nis-
                                                                                       san shall have 10 days from the date of EPA’s notice to present such information.
                                                                                     (E) Following the receipt of information from Nissan, as described in paragraph
                                                                                       (6)(D), or if no such information is received within 10 days, EPA will issue a final
                                                                                       written determination describing the Agency actions that are necessary to protect
                                                                                       human health or the environment, given the information received in accordance
                                                                                       with paragraphs (6)(A) or (6)(B). Any required action described in EPA’s deter-
                                                                                       mination shall become effective immediately, unless EPA provides otherwise.
                                                                                     (7) Notification Requirements: Nissan must provide a one-time written notification to
                                                                                       any State Regulatory Agency in a State to which or through which the delisted
                                                                                       waste described above will be transported, at least 60 days prior to the com-
                                                                                       mencement of such activities. Failure to provide such a notification will result in a
                                                                                       violation of the delisting conditions and a possible revocation of the decision to
                                                                                       delist.

                *                           *                            *                          *                     *                       *                *



      [FR Doc. 05–12579 Filed 6–23–05; 8:45 am]                        suppliers and practitioners, and for                       data collection program—the Healthcare
      BILLING CODE 6560–50–P                                           maintaining a data base of final adverse                   Integrity and Protection Data Bank
                                                                       actions taken against health care                          (HIPDB)—for the reporting and
                                                                       providers, suppliers and practitioners.                    disclosing of certain final adverse
      DEPARTMENT OF HEALTH AND                                         An inadvertent error appeared in the                       actions taken against health care
      HUMAN SERVICES                                                   text of the regulations concerning the                     providers, suppliers and practitioners,
                                                                       definition of the term ‘‘any other                         and for maintaining a data base of final
      Office of Inspector General                                      negative action or finding.’’ As a result,                 adverse actions taken against health care
                                                                       we are proposing to correct 45 CFR 61.3,                   providers, suppliers and practitioners.
      45 CFR Part 61                                                   Definitions, to assure the technical                       The final rule established a new 45 CFR
      RIN 0906–AA46
                                                                       correctness of these regulations.                          part 61 to implement the requirements
                                                                       DATES: To assure consideration, public                     for reporting of specific data elements
      Office of the Secretary, Health Care                             comments must be mailed and delivered                      to, and procedures for obtaining
      Fraud and Abuse Data Collection                                  to the address provided below by no                        information from, the HIPDB. In that
      Program: Reporting of Final Adverse                              later than 5 p.m., July 25, 2005.                          final rule, an inadvertent error appeared
      Actions; Correction                                              ADDRESSES: Please mail or deliver your                     in § 61.3—the definitions section of the
                                                                       written comments to the following                          regulations—and is now being proposed
      AGENCY:  Office of Inspector General                                                                                        for correction.
                                                                       address: Department of Health and
      (OIG), HHS.
                                                                       Human Services, Office of Inspector                           Section 61.3 expanded on previous
      ACTION: Proposed correction                                      General, Attention: OIG–46–CA2, 330
      amendment.                                                                                                                  regulatory definitions and provided
                                                                       Independence Avenue, SW., Room                             additional examples of the scope of
      SUMMARY: This document proposes a                                5246, Washington, DC 20201.                                various terms set fort in the statute. On
      correction to the final regulations,                             FOR FURTHER INFORMATION CONTACT: Joel                      page 57755 of the preamble,
      which were published in the Federal                              Schaer, OIG Regulations Officer Office                     summarizing the various revisions being
      Register on October 26, 1999 (64 FR                              of External Affairs, (202) 619–0089.                       made to the final rule, we indicated that
      57740). These regulations established a                          SUPPLEMENTARY INFORMATION: The HHS                         with respect to the definition for the
      national health care fraud and abuse                             Office of Inspector General (OIG) issued                   term ‘‘any other negative action or
      data collection program for the reporting                        final regulations on October 26, 1999                      finding’’ there are certain kinds of
      and disclosing of certain adverse actions                        (64 FR 57740) that established a                           actions or findings that would not meet
      taken against health care providers,                             national health care fraud and abuse                       the intent of the statute and not be


VerDate jul<14>2003    16:57 Jun 23, 2005       Jkt 205001    PO 00000       Frm 00019   Fmt 4702   Sfmt 4702   E:\FR\FM\24JNP1.SGM    24JNP1
                                 Federal Register / Vol. 70, No. 121 / Friday, June 24, 2005 / Proposed Rules                                           36555

      reportable. We cited, as an example,                    PART 61—HEALTHCARE INTEGRITY                           Atmospheric Administration (NOAA),
      administrative actions, such as limited                 AND PROTECTION DATA BANK FOR                           Commerce.
      training permits, limited licenses for                  FINAL ADVERSE INFORMATION ON                           ACTION:   Notice of public workshop.
      telemedicine, fines or citations that do                HEALTH CARE PROVIDERS,
      not restrict a practitioner’s practice, or              SUPPLIERS AND PRACTITIONERS
      personnel actions for tardiness, that                                                                          SUMMARY: NMFS will present a
      were not within the range of actions                     1. The authority citation for part 61                 workshop on proposed catch-
      intended by the statute. As a result, we                would continue to read as follows:                     monitoring standards for the non-
      agreed to add a clarifying phrase to this                    Authority: 42 U.S.C. 1320a-7e.                    American Fisheries Act (AFA) trawl
      term. The revised definition would                         2. Section 61.3 would be amended by                 catcher/processor sector. These
      exclude administrative fines or                         republishing the introductory text, and                standards are necessary to support
      citations, corrective action plans and                  by revising the definition for the term                proposed groundfish and prohibited
      other personnel actions, unless they are                ‘‘Any other negative action or finding’’               species allocations to this sector that are
      (1) connected to the billing, provision or              to read as follows:                                    under consideration by the North
      delivery of health care services, and (2)                                                                      Pacific Fishery Management Council.
                                                              § 61.3    Definitions.
      taken in conjunction with other                                                                                DATES: The workshop will be held
      licensure or certification actions such as                 The following definitions apply to
                                                              this part:                                             Monday, June 27, 2005, from 10 a.m. to
      revocation, suspension, censure,                                                                               1 p.m.
      reprimand, probation, or surrender.                     *      *    *     *     *
      However, we inadvertently omitted this                     Any other negative action or finding                ADDRESSES:  The workshop will be held
      clarifying language to the regulations                  by a Federal or State licensing agency                 at the Nordby Center, located in
      text of the rule itself. Therefore, to be               means any action or finding that under                 Fishermen’s terminal, 1711 W
      consistent with the intended                            the State’s law is publicly available                  Nickerson St, Seattle, WA.
      clarification and the overall intent of the             information, and rendered by a
                                                              licensing authority, including but not                 FOR FURTHER INFORMATION CONTACT:
      final rulemaking, we are correcting this
                                                              limited to, limitations on the scope of                Alan Kinsolving, 907–586–7228.
      inadvertent error in the definition of the
      term ‘‘any other negative action or                     practice, liquidations, injunctions and                SUPPLEMENTARY INFORMATION:      The North
      finding’’ that appeared on page 57759 in                forfeitures. This definition also includes             Pacific Fisheries Management Council is
      the October 26, 1999 final regulations to               final adverse actions rendered by a                    developing proposed Amendment 80 to
      include this additional clarifying                      Federal or State licensing or                          the Fishery Management Plan for
      language.                                               certification authority, such as                       Groundfish of the Bering Sea and
                                                              exclusions, revocations or suspension of               Aleutian Islands Area (FMP).
         Comments should be addressed                         license or certification that occur in
      specifically to the issue of clarifying the                                                                    Amendment 80 would allocate
                                                              conjunction with settlements in which                  prohibited species and target species
      existing definition of the term in                      no finding of liability has been made
      question in accordance with the earlier                                                                        other than Pacific cod and pollock to
                                                              (although such a settlement itself is not
      final rulemaking.                                                                                              trawl catcher/processor vessels that are
                                                              reportable under the statute). This
                                                                                                                     not qualified to fish for pollock under
      Response to Public Comments                             definition excludes administrative fines
                                                                                                                     the AFA. One aspect of the analysis of
                                                              or citations and corrective action plans
         Comments will be available for public                                                                       alternatives being developed for
                                                              and other personnel actions, unless they
      inspection beginning on July 8, 2005 in                 are:                                                   Amendment 80 includes options for
      Room 5518 of the Office of Inspector                       (1) Connected to the delivery of health             catch monitoring, weighing, and
      General at 330 Independence Avenue,                     care services; and                                     accounting standards for the non-AFA
      SW., Washington DC, on Monday                              (2) taken in conjunction with other                 trawl catcher/processor sector. NMFS is
      through Friday of each week from 8 a.m.                 licensure or certification actions such as             conducting the June 27, 2005, workshop
      to 4 p.m., (202) 619–0089. Because of                   revocation, suspension, censure,                       so that interested industry members
      the number of comments we normally                      reprimand, probation or surrender.                     may provide guidance to NMFS on the
      receive on regulations, we will not                                                                            development and implementation of
                                                              *      *    *     *     *
      acknowledge or respond to them                                                                                 these standards.
                                                                Dated: June 20, 2005.
      individually. However, we will consider                                                                           This workshop is not intended to be
      all timely and appropriate comments                     Ann Agnew,
                                                                                                                     a forum for providing public comment
      when developing the final corrections                   Executive Secretary to the Department.                 on the proposed rule to implement
      amendment.                                              [FR Doc. 05–12481 Filed 6–23–05; 8:45 am]              proposed Amendment 79 to the FMP.
      List of Subjects in 45 CFR Part 61
                                                              BILLING CODE 4152–01–P                                 That proposed rule also would establish
                                                                                                                     catch monitoring standards for some
        Billing and transportation services,                                                                         vessels within the non-AFA trawl
      Durable medical equipment suppliers                     DEPARTMENT OF COMMERCE                                 catcher/processor sector. Written
      and manufacturers, Health care insurers,                                                                       comments on Amendment 79 may be
                                                              National Oceanic and Atmospheric                       submitted to NMFS consistent with the
      Health maintenance organizations,
                                                              Administration                                         protocol set forth in the preamble to the
      Health professions, Home health care
      agencies, Hospitals, Penalties,                                                                                proposed rule published in the Federal
                                                              50 CFR Part 679                                        Register on June 16, 2005 (70 FR 35054).
      Pharmaceutical suppliers and
      manufacturers, Privacy, Reporting and                   [I.D. 062005A]                                            This workshop is physically
      recordkeeping requirements, Skilled                                                                            accessible to people with disabilities.
      nursing facilities.                                     Fisheries of the Exclusive Economic
                                                                                                                     Requests for sign language
                                                              Zone Off Alaska; Public Workshop
        Therefore, 45 CFR part 61 is proposed                                                                        interpretation or other auxiliary aids
      to be amended by making the following                   AGENCY:  National Marine Fisheries                     should be directed to Alan Kinsolving
      correcting amendment:                                   Service (NMFS), National Oceanic and                   (see FOR FURTHER INFORMATION CONTACT).


VerDate jul<14>2003   16:57 Jun 23, 2005   Jkt 205001   PO 00000   Frm 00020   Fmt 4702   Sfmt 4702   E:\FR\FM\24JNP1.SGM   24JNP1
